<html>
<title> - ISLAMIST FOREIGN FIGHTERS RETURNING HOME AND THE THREAT TO EUROPE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   ISLAMIST FOREIGN FIGHTERS RETURNING HOME AND THE THREAT TO EUROPE

=======================================================================



                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2014

                               __________

                           Serial No. 113-217

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
89-816                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Farah Pandith, Fisher Family fellow, Belfer Center, Harvard 
  Kennedy School of Government (former U.S. Special 
  Representative to Muslim Communities)..........................     6
Mr. Thomas Joscelyn, senior fellow, Foundation for Defense of 
  Democracies....................................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Farah Pandith: Prepared statement............................     9
Mr. Thomas Joscelyn: Prepared statement..........................    18

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39


   ISLAMIST FOREIGN FIGHTERS RETURNING HOME AND THE THREAT TO EUROPE

                              ----------                              


                       FRIDAY, SEPTEMBER 19, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:24 a.m., in 
room 2172, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrbacher. I call this hearing to order.
    And this is the Subcommitteeq on Europe, Eurasia, and 
Emerging Threats. And today we will be discussing an emerging 
threat to Europe, which is an area that we are focused on, but 
it is also an emerging threat to the world.
    And I am going to handle things a little differently for 
this hearing. I am going to permit my--or ask my ranking member 
if he would move forward with his opening statement first.
    I will then have my opening statement as chairman of the 
subcommittee, and I will ask my colleagues if--to have short 
opening statements as well.
    I yield, then, to Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, for holding this 
important and timely hearing.
    I would like to also thank our esteemed witnesses, 
including Ms. Farah Pandith. And I am pleased that you are able 
to join us. Ms. Pandith's uncle, Dr. Ashraf, and I have a long 
history in Massachusetts, and I am so happy to see his legacy 
live on through his niece, who is testifying before us today.
    Today's hearing is particularly relevant, given the 
geographic proximity of Europe to the conflict zone. Social 
networking, the internet, the propaganda have become the 
premier recruitment tools for terrorist gangs expanding their 
reach far into Europe and to the United States. These tools are 
cheap and effective. Even for the group like ISIL, who seems to 
have plentiful resources, they are being used. For this reason, 
I think that the nexus of our counterterrorism strategy should 
focus on various facets of their recruitment and communication 
strategy. This has been the root of the problem for decades and 
this is what we must attack.
    Of course, we will need the cooperation of our 
transatlantic and regional partners to do this effectively. The 
National Counterterrorism Center estimates that as of this 
month, as many as 12,000 individuals have traveled to Syria 
since 2011 in order to support the armed militants there. This 
figure includes well over 1,000 European citizens and more than 
100 Americans. The other estimates, particularly from our 
allies overseas, expect these numbers to be even higher.
    Europe can serve as a barometer for what may come in the 
United States, and for this reason, we must continue to work 
closely with our European partners and find ways to facilitate 
better information-sharing and communication. The FBI and other 
intelligence agencies are already working with domestic and 
international partners to track foreign fighters traveling 
through the Mideast.
    As such, interagency cooperation and information-sharing 
will undoubtedly be put to a test as agencies seek to 
coordinate and respond to this threat, particularly across 
international boundaries. For this reason, I for one will 
continue to be a strong advocate for incorporating local law 
enforcement into this framework and utilizing their force 
multiplier effect.
    Yet as I mentioned earlier, there is a larger piece of the 
puzzle, and that is with the mindset and recruitment of these 
militants who come to their Western nations to join brutal 
gangs that go on to rape, kill and divide thousands, if not 
millions, comes into bear.
    As a transatlantic community, we can only fight the lure of 
terrorism by determining its causes and devising appropriate 
countermeasures. In particular, I feel the messages being 
promoted, the heritage and the varied cultural history of the 
Middle East and North Africa will be important to helping young 
people to find their true identities instead of listening to 
backwards propaganda seeking to destroy that history.
    Further, although controversial, I think it is important to 
reassess our partners in this fight. Are all the countries that 
have been affected and impacted by foreign fighter and this 
phenomenon doing what they can do to stem recruitment and 
financing? Are they protecting those in their own population 
and region from being coerced and harmed from these activities? 
A true partner in countering radicalism would not only do what 
they could do to curtail such activities from taking place 
abroad, but would have zero tolerance for extremism to go 
unchecked at home as well.
    These are important questions to weigh when evaluating the 
capabilities of our international partners, who in most cases 
are more prone to attacks by radical groups than we are. Yet 
radicalization is occurring across the world in rural and urban 
settings, wealthy and poor communities, and among all education 
levels.
    In the long-run, we must ensure that courses of action we 
pursue are not only targeting terrorist groups, but the 
polarizing policies that often lead to this kind of societal 
division.
    Further, this composition now must include both genders, 
for it is not only men who take up arms, but women who play an 
integral role in the stabilization and organization of society 
within ISIL and as well as other extremist groups. Muslim women 
are growing up in increasingly conservative, closed 
environments, and this will have an effect on future 
generations.
    The subject of today's hearing is of utmost concern to our 
own national security, and I look forward to hearing each of 
our witnesses' perspectives on this timely issue.
    And with that, I thank the chairman and yield back.
    Mr. Rohrbacher. Well, thanks very much. And this morning's 
hear is on the merging threat of Islamist foreign fighters 
going to Syria and Iraq and the specific threat that they pose 
when they seek to return to Europe, and how does that impact us 
in the United States as well.
    In 2011, the Syrian people rose up in revolt against their 
government. Over 3 years later, Syria has been torn apart by 
ethnic and sectarian strife. It is in ab open civil war. 
Radical Islamic terrorist groups, including al-Qaeda, have 
taken full advantage of this chaos. Possibly as many as 15,000 
foreign fighters have entered Syria from around, well, perhaps 
80 different countries to take up arms in this fight.
    It appears that several thousand of those fighters came 
from Europe and hold passports from European countries. Many of 
these Islamists have joined ISIL, a heinous, brutal anti-
Western terrorist organization that has grown to contest vast 
territory in both Syria and Iraq.
    In ISIL, we face a terrorist group which controls land and 
has proven its abilities on the battlefield. It is also one of 
the richest terrorist groups in the world. They profit from 
criminal activity, extortion, black market oil sales, and of 
course the easy capture, or you might say gift, of vast amounts 
of American military equipment that we had generously provided 
Iraq. This is a mega-million-dollar operation on their part.
    It is a nightmare to think about the kind of attacks ISIL 
could pull off, given their financial resources, their 
geographic safe havens and their access to so many recruits 
with Western passports.
    The filmed beheading of James Foley and Steven Sotloff and 
David Haines tells us all that we need to know, that is all we 
need to know about the intentions of this terrorist 
organization. The terrorist holding the knife, and let us 
remember, the terrorist holding the knife in the beheading 
videos spoke with a British accent. That indicates the 
magnitude of the security challenge that we face.
    We have already begun to see the threat of terrorism 
emanating from Syria. This week, a Yemen-born naturalized 
American citizen was indicted for attempting to provide support 
to ISIL in New York state. Dozens of people have also been 
arrested just this week in Australia and in the Balkans in 
connection to plots to aid ISIL and conduct terrorist attacks 
in the West.
    And the words ``terrorist attacks in the West'' perhaps is 
a little too soft. Maybe we should understand what a terrorist 
attack in the West means are the bodies, the brutal tearing 
apart of the bodies of women and children, civilians, people 
who just want to live their lives. And this group of other 
human beings, for whatever reason they have, will at random 
murder our fellow citizens and people who live in Western 
countries. Perhaps, as we will hear from our witnesses, I would 
like to hear about their--what motive we are talking about here 
perhaps to terrorize Western civilization out of a huge section 
of the globe.
    In May, a Muslim terrorist who held French citizenship and 
who had traveled to Syria, shot and killed four people in a 
Jewish museum in Brussels. Those victims, they were honest, 
ordinary people, could be related to any of us.
    And during our discussions this morning, I hope to learn 
from the panelists about why ISIL's bloody message of hate and 
violence attracts far too many of European Muslims; what are 
the viable options for European countries in this situation to 
prevent terrorists from returning home; what attracts them to 
it, and how can we prevent them from coming back to their home 
countries and conducting this type of murder, horrible murder 
upon innocent people in our societies; how can we better work 
with our European allies; and, let me add, how can we better 
work with the European allies and Russia to defend ourselves 
against this shared threat?
    Finally, let me just note that I think we would do well to 
learn from Europe's immigration experience as we talk about 
reforming our own laws. This problem is not only 
counterterrorism, but it is a question of how different people 
can fit together in a free society.
    We have a lot to cover, so with that, I turn to my--the 
ranking member has already been heard from. Other members 
perhaps have short opening statements, and I yield to Judge 
Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    ISIS, as you have said, is a threat that we need to 
understand has to be reckoned with. I fear the West, especially 
the United States, underestimates them. They have, unlike many 
of the terrorist groups, set up governance in northern Iraq and 
in Syria. They tax the people, they govern the community, they 
have oil, they have money, and they are determined fighters. 
And, as you said, they have a lot of American equipment 
already.
    The United States for years has supplied equipment to the 
Iraqis and tried to train them. In the first encounter with 
ISIS in northern Iraq, they cut and ran. A lot of Americans 
believe they just threw down some small arms and some MRE's and 
some ammo and took off running. Not so. Here is an M1 tank that 
the Iraqi Government was given by the United States. Confronted 
with ISIS, they bailed, and now ISIS controls an M1 tank 
belonging to the American citizens.
    Here is the parade that they celebrated after capturing 
several Humvees abandoned by the Iraqis that we subsidized. And 
at the bottom, what to me is the most alarming: These are four 
Humvees, American-made, given to the Iraqi troops to fight 
ISIS, and after they cut and ran, they were abandoned, and now 
this is an ISIS truck headed to Syria to fight in Syria. I 
think we underestimate who these people are.
    Foreign fighters for ISIS are already coming back to Europe 
and launching attacks. Monday, Germany held its first trial of 
an alleged German-born Jihadist. In May 2014, a terrorist 
affiliated with ISIS killed three people at the Jewish museum 
in Brussels. British Prime Minister David Cameron said last 
week that there have already been at least six planned 
terrorist attacks in the EU countries from ISIS. And the threat 
won't stay in Europe, as the Australians have already found out 
this week. Because they come from visa-waiver countries, many 
of these individuals are able to travel to the U.S.
    We have to work with European friends to identify and track 
foreign Jihadists fighting in Syria. We also must convince them 
that this is a group to be reckoned with. They are a threat to 
all civilized peoples. They cannot be allowed to return home to 
continue their Jihad.
    I have introduced H.R. 5406, the Foreign Terrorist 
Organization Passport Revocation Act, exactly for this purpose. 
This bill calls for the State Department to revoke U.S. 
passports for individuals who are fighters for any foreign 
terrorist organization or helping to support an FTO in any way.
    American citizens that fight for ISIS are traitors, they 
are Benedict Arnolds, and they are not welcome back in the U.S.
    And with that, Mr. Chairman, I will yield back.
    Mr. Rohrbacher. Thank you very much.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Witnesses, I appreciate you being here. This is a very 
important topic.
    In lieu of what is going on in our world today, as Mr. 
Keating spoke, radical terrorist groups are growing around the 
world. It would be wise and prudent for us to address this 
before it gets any worse. And we have heard reports, suspected 
reports in this country of already things happening. You have 
got to worry about--or think about the Boston Marathon bombing. 
Is this the beginning of a way that is going to happen here 
that is unacceptable?
    In lieu of what is going on in the Middle East, we talk 
about ISIL coming over here, and they even said they were 
coming to America, we have to pay attention and not allow that 
to happen. And it is--as I think they have to be dealt with 
over in a foreign country, we need to do more here to secure 
our borders. And I would like to hear ideas from you on 
securing our borders; not just the southwest border, but all of 
our borders, in addition to the passports that--people that 
have Western passports that travel over there.
    In fact, we introduced a bill this week, it is called the 
Terrorist Nationality Act, that it sounds like other members 
have done too, that will strip citizenship away from people 
that have known affiliation with foreign terrorist groups or 
have picked up arms against American citizens or American 
military.
    So I look forward to hearing suggestions on what we can do 
to make our country safer.
    And with that, I yield back. Thank you.
    Mr. Rohrbacher. Well, thank you all very much.
    We have two great witnesses with us, and we plan to have a 
great discussion with you after your testimony.
    First, Thomas Joscelyn, a senior fellow with the Foundation 
for Defense of Democracies, and senior editor, of course, of 
The Long War Journal, a publication which tracks 
counterterrorism issues. He is a widely respected expert on al-
Qaeda and its related groups around the world. He writes and 
contributes often to The Weekly Standard and makes guest 
appearances on television and radio. He has appeared before 
other Foreign Affairs, House Foreign Affairs Committee 
hearings, and we are pleased to welcome him to this 
subcommittee.
    Also we have with us Ms. Farah Pandith, is the Fisher 
Family fellow at the Kennedy School of Government at Harvard 
University. She was appointed in 2009 as the first ever Special 
Representative to the Muslim Communities by Secretary of State 
Clinton. She worked in that capacity to engage and communicate 
with Muslim communities around the world on behalf of the 
United States Government. For her achievement, she was awarded 
the Secretary's Distinguished Honor Award in 2013.
    Prior to her appointment, she held senior positions in the 
U.S. Agency for International Development and the State 
Department's Bureau of European and Euro-Asian Affairs. She has 
also worked as the Director of Middle East Regional Initiatives 
for the National Security Council. She has earned a master's 
degree from Fletcher School of Law and Diplomacy at Tufts 
University.
    And I appreciate the witnesses. And I guess first we will 
hear from--it is a toss-up here. How about--how about if we go 
with Ms. Farah Pandith.

 STATEMENT OF MS. FARAH PANDITH, FISHER FAMILY FELLOW, BELFER 
   CENTER, HARVARD KENNEDY SCHOOL OF GOVERNMENT (FORMER U.S. 
         SPECIAL REPRESENTATIVE TO MUSLIM COMMUNITIES)

    Ms. Pandith. Good morning. And thank you to the house--that 
would help.
    Good morning, and thank you to the House Foreign Affairs 
Committee for inviting me here today.
    Mr. Chairman and members of the Subcommittee on Europe, 
Eurasia, and Emerging Threats, it is my honor and pleasure to 
be here today for this important and timely hearing.
    My name is Farah Pandith. I am a senior fellow at the 
Kennedy School of Government at Harvard University. My opinions 
and my written and verbal testimony are my own.
    I have come before you today to talk about the threat of 
foreign fighters returning to Europe and what the United States 
could and should be doing about it. As a political appointee in 
the George W. Bush and Obama administrations, I spent a decade 
working on the impact of extremist ideologies on Muslim 
millenials, especially in Europe. I saw firsthand the complex 
processes by which extremists prey on young Muslims, tear apart 
local communities, and threaten stability worldwide.
    In January of this year, I left government with the 
intention of writing a book that would explain what I had seen 
and what we can do to win the ideological war against 
extremism. I firmly believe we can win.
    I am a proud American, and I know firsthand of the many men 
and women who serve our Nation with passion, commitment and 
steadfast determination to keep us safe from harm. I have been 
honored to work with and for them.
    I also know the respect our Presidents have for all faiths. 
Both administrations under which I have served have openly 
stated that the heinous acts of terrorists do not, by any 
means, represent the religion of Islam.
    My interest and involvement in the issue of extremism isn't 
typical. Out of college, I served in the George H.W. Bush 
administration, but left to attend the Fletcher School of Law 
in Diplomacy. It was there in 1993 that I focused on national 
security and was awarded a grant to travel to Kashmir during a 
very delicate and unstable time. I conducted interviews with 
militants, and began to understand the power of ideologies and 
the impact they were having on an older culture, heritage and a 
way of life.
    I stayed in Massachusetts after graduate school, but felt 
called to serve after the events of 9/11. Al-Qaeda was trying 
to define my country and my religion. I could not sit back and 
watch.
    For more than a decade since, I have worked closely on the 
issue of extremist ideologies impacts on Muslims. During my 
tenure at the National Security Council, the Danish cartoon 
crisis broke out. And in 2006, we found ourselves unprepared 
for the reality that something that happened in Copenhagen 
could have an effect on a life in Kabul.
    Then Assistant Secretary for European and Eurasian Affairs, 
Dan Fried, asked me to serve as his senior advisor, to focus 
solely on Muslims in Europe and to help recalibrate the way our 
Embassies engaged with Muslims. Our country had never had that 
position, and Ambassador Fried understood how vital it was that 
we reach out more boldly to Muslims in Europe, gain an 
understanding of their diversity of experiences, and analyze 
the impact on them of extremist narratives.
    For 2 years I traveled across Europe and met with Muslim 
communities, getting to know what was happening within 
communities and between generations and ethnicities. To push 
back against extremist narratives, we seeded several path-
breaking initiatives that directly addressed the idealogical 
threat posed by extremists. These initiatives identified 
credible Muslim voices within Muslim communities, and by 
partnering with and supporting them, helped them to wield 
greater influence among young Muslims susceptible to extremist 
messages. Several of these CVE initiatives, such as Sisters 
Against Violent Extremism, continue to operate today 
independent of the U.S. Government.
    The most vital fact I gleaned from thousands of 
conversations I had across Europe was that Muslim youths were 
having an identity crisis and that they were searching for 
answers. Extremist narratives were filling the intellectual 
vacuum created by this crisis, and governments were ill-
equipped to deal with it.
    A similar dynamic continues to unfold before our eyes with 
evermore violent and gruesome implications.
    In order for ISIL or other extremist organizations to 
persuade someone to join its army, these groups must be able to 
appeal emotionally to a young person eager for meaning and a 
sense of belonging.
    This morning I want to make five points related to foreign 
fighters, their threat to us, and what America could be doing 
to fight back.
    First, both men and women are at risk today. Just yesterday 
we saw in a new report that an Austrian teenage girl, who 
joined ISIL, is now pregnant. The presence of female recruits 
represents a new and important change in the extremist 
landscape.
    Second, policymakers should be concerned not just with 
individuals who leave their home countries to fight in the 
Middle East or elsewhere, but with the ideology that continues 
to spread among those left behind.
    Third, European civilization does not construct national 
identities in a uniform way. As a result, we must be local and 
nuanced in our policy approaches.
    Fourth, we can win the ideological war with extremism by 
investing significantly in soft power.
    Fifth, free borders in Europe don't represent the whole 
story. Free ideas bounce around the world online, keeping the 
cycle of hatred turning, but free ideas could also potentially 
feed a more virtuous cycle of peace and respect for others. 
With coordinated and comprehensive attention, we can 
dramatically change the patterns of discourse within Muslim 
communities, with positive consequences for Europe, the United 
States, and our allies.
    Extremist ideology is the greatest threat of our time. The 
generation at risk is massive, global, and digitally connected. 
It is time we address the ideological threat head on and stop 
the recruitment from happening. This is winnable if we behave 
smartly, proactively, and creatively.
    Thank you again for the opportunity to speak with you.
    Mr. Rohrbacher. Well, thank you very much. That was very 
thoughtful testimony, and I am sure we will have some serious 
questions for you.

    [The prepared statement of Ms. Pandith follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrbacher. And now to our next witness, and senior 
fellow with the Foundation for Defense of Democracies. You may 
proceed, Dr.--or Mr. Thompson.
    Mr. Joscelyn. Thank you, Congressman.
    Mr. Rohrbacher. Dr., but it is Mr.
    Mr. Joscelyn. No. It is Mr. all the way.
    Mr. Rohrbacher. Okay. Mr. Joscelyn.

STATEMENT OF MR. THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you for having me here today to 
talk about this issue.
    We have been tracking the issue of foreign fighters going 
to Syria at The Long War Journal for a while now, a few years 
going back to really late 2011, early 2012. And it is really 
stunning to me that today we have more foreign fighters in 
Syria than were in Afghanistan during the height of the Jihad 
against the Soviets. That is really an incredible metric if you 
think about it. And this creates all sorts of security 
challenges, of course.
    I have a little bit of a nuanced view of this. We are right 
to be concerned about the threat the foreign fighters pose to 
the West and the possibility of using terrorist attacks. Most 
of them, however, will not come back our way. Most of them are 
going to remain invested in the fight in Iraq and Syria. Most 
of--some of them will even become disillusioned. And for 
those--some that become disillusioned, they can become partners 
for us in sort of counter-messaging to basically dispel the 
mythology that sort of the Jihad in Syria is some grandiose 
sort of quest, that they can actually become sort of our 
messengers in Europe and the West to tell people that going off 
to fight in Syria is not as great as the recruiters make it to 
sound out to be.
    However, I want to say this. As the number of foreign 
fighters increases, there are two main problems: One, you can 
have sort of these acts of violence like the shooting at the 
museum in Brussels that you mentioned, Congressman, where we 
don't know if he was under direction of any senior terrorists 
or not, but it is still a serious threat that you can have 
somebody who is really known as a psychopath can basically go 
back to Europe.
    And to your point, Congressman Yoho, about identifying 
these individuals who are traveling around, he traveled all 
throughout Europe through multiple Nations before that attack, 
and he had been identified by French intelligence in 2013 as a 
risk, and was still able to move around quite freely up until 
that day of terror. So we have that sort of threat.
    The second level full threat is a more nuanced one that I 
think we really have to think about, which is if you think back 
to pre-9/11 Afghanistan, between 10 and 20,000 recruits went 
through al Qaeda's training camps in Afghanistan. What al-Qaeda 
was doing was they were trying to identify sort of the most 
talented and most dedicated recruits to re-purpose for attacks 
in the West, and that is what ultimately gave us, for example, 
the Hamburg cell that traveled from Germany to Afghanistan. 
These are individuals who are identified as being totally 
committed, skilled and somebody they could train up to 
basically fly planes into buildings.
    What is interesting about that is those recruits who 
traveled to Afghanistan were originally wanted to actually go 
wage Jihad in Chechnya against the Russian Government. They 
weren't actually recruited originally to go fly planes into 
buildings in the U.S. This is how a Jihad in Afghanistan or 
elsewhere could be re-purposed very quickly and come back at 
us.
    And so as the talent level of foreign fighters increases, 
what happens is that the skilled professional terrorists, the 
guys who I am really worried about, are basically sifting 
through the pile to figure out who is really the best recruits 
for them to use in operations against us.
    U.S. officials say that the Islamic State doesn't pose an 
imminent threat to the U.S. homeland in terms of catastrophic 
attacks. The consensus seems to be that they don't--are not 
able to plan catastrophic terrorist attacks in the West at the 
moment. I would pause on that. History tells us that these 
threats evolve very, very quickly. Al-Qaeda in the Iranian 
peninsula went from a regional national insurgency to a direct 
threat against the U.S. homeland within a matter of basically 9 
months, 9, 10 months, something along those lines.
    There is a lot we don't know. We didn't know that Khalid 
Sheikh Mohammed, the mastermind of 9/11, was in fact an al-
Qaeda operative until several months after 9/11. Okay?
    So what worries me is what we don't about this group and 
its capabilities. We know the intent is there. And just because 
we don't think they have the ability to attack us in a 
catastrophic way right now in the West doesn't mean that they 
won't be able to in the near future.
    But finally, I will say this: Everybody is rightfully 
concerned about ISIL, as we call it here right now, and the 
threat. It is sort of amazing to watch a rampage across two 
nation states. But, again, I have a slightly different view. I 
think the greater near term threat to us is actually--are 
actually the al-Qaeda operatives in Syria right now, who U.S. 
intelligence officials, European intelligence officials are 
very worried about planning catastrophic attacks against us.
    These are guys who are embedded within Jabhat al-Nusra, 
which is an initial branch of al-Qaeda, and is actually a rival 
of ISIL inside Syria today. This is how complicated this is. 
The threat streams are coming from multiple directions. It is 
not just ISIL.
    Within Jabhat al-Nusra, you have skilled operatives who are 
dispatched by Ayman al-Zawahir, the head of al-Qaeda, to Syria. 
And what they are doing is very carefully sorting through the 
pile of European and Western recruits to figure out who they 
can use, like the Hamburg cell for 9/11, something along those 
lines. That is a bigger near term concern, I think, in terms of 
big sort of spectacular terrorist attacks.
    A big problem there too is that Jabhat al-Nusra is deeply 
embedded within the Syrian insurgency against the Assad regime. 
They are very popular amongst other rebels. They are not--this 
is--I know--I realize that yesterday I think there was big 
vote, of course, on funding and training the rebels. I--my one 
caveat there is we have got to be worried about how these 
rebels interact with Jabhat al-Nusra. They are not ISIL. Okay. 
They are opposed to ISIL, they are opposed to Assad, and yet 
they are al-Qaeda. Right?
    So this is a very complicated game that we have to play 
here and be worried about, and I don't hear a lot of discussion 
about that. And I am worried about that. That doesn't mean I 
necessarily oppose what the administration wants to do; it is 
just my own sort of--you know, we have to be very careful about 
how we do it. And we can get into that a little bit more during 
questioning, maybe.
    Finally, back to your point, Congressman Yoho, about these 
recruits traveling. There was a suicide bomber for Jabhat al-
Nusra earlier this year, who blew himself up, an American, 
known as Abu Salha, and he actually--this is, again, one of 
those things that worries me. He managed to travel to and from 
his home in Florida from the Jihad in Syria as he was basically 
being indoctrinated and recruited to blow himself up in Syria.
    Now, Jabhat al-Nusra decided not to try and use him in an 
attack against the West, but you can bet that they learned from 
how he got in and out of the country what they can try and--and 
try and use that information in the future. And that is really, 
I think, how we should be thinking about that.
    Thank you.
    Mr. Rohrbacher. Well, thank both of you for providing us 
that testimony.
    [The prepared statement of Mr. Joscelyn follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrbacher. Again, I will yield to my ranking member, 
and I will just top things off after we give Congressman Yoho a 
chance to ask some questions as well.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you both for your testimony. I think we are seeing in 
a continuum, from the inception of ideology to how they are 
practically carrying many of these things out. That was very 
clear in both of your testimonies, and I appreciate that.
    I want to focus in for a moment on a shared commitment I 
have with the administration to strengthen women's rights 
globally and to empower women and their families in 
transitional societies, such as Iraq. And part of that is 
stemming at this ideological flourishing that is occurring 
within families. And Chairman Royce and myself earlier this 
year held a hearing on the importance of women in battling 
violent extremism, and the name that you mentioned, Farah, in 
terms of Sisters Against Violent Extremism came up. I know you 
touched on it in your testimony.
    But women are the first educators of their children. They 
are in a unique position to spot signs of radicalization and 
extremism, and they are also in a very pivotal position to try 
and deal with that. And I think we have to empower women to 
recognize this, to recognize the signs, and give them tools as 
to how to deal with that.
    But could you comment on the Sisters Against Violent 
Extremism and the overall effort to try and use women more 
effectively and mothers more effectively in this fight against 
extremism, and to really, you know, quash this ideological 
growth?
    Ms. Pandith. Thank you very much for that question.
    You know, I talked a lot about the ideology and where it 
stems, and I don't need to explain to all of you how important 
family is. And as a young person grows up, this question of 
identity, the confusion, asking questions, these millenials are 
experiencing something that no other generation has 
experienced, and in the context of a post-9/11 world, that is 
why I said the numbers are massive. You know, one-fourth of the 
planet is Muslim; you know, 1.6 billion people. Sixty-two 
percent of that number is under the age of 30. These are 
millenials that have grown up looking at their life in a very 
different way. Everybody has an identity crisis, okay, it 
doesn't matter what religion you are, but something specific is 
happening to a generation that has grown up in the context of 
9/11, asking questions that their parents and their 
grandparents didn't ask.
    And as they are dealing with this sense of identity and 
belonging, they are looking for answers, and the answers that 
they always go to are not traditional, necessarily. It isn't 
the cleric, necessarily. It is not the elder person in the 
village town or city. It is Sheikh Google who answers a lot of 
these questions for them.
    The reason why women are important is for two reasons: One, 
as you said, the mothers are the child's first teachers, they 
are seeing things with their children, they are beginning to 
see changes happening. If you are looking at some of the 
radicalization processes and you go back and you talk to the 
parents, they have seen signs, mothers talk about things that 
they have seen. They influence the ecosystem within the home. 
Very, very important.
    But there is another piece of this, and that other piece of 
this is how you use women to mobilize their perspective 
globally and connect those things. That is where we began to 
look at models that would work on a grassroots level that are 
very local and are inspired by regular people. It wasn't 
Government coming in and saying something.
    In the Bush administration, we looked at the model of 
Mothers Against Drunk Driving here in America and said, how did 
that get off the ground? How do we begin--how do we build this? 
And we began to think about what would happen if we began to 
build a network of like-minded women who could push back 
against extremist ideologies, and seeded Sisters Against 
Violent Extremism with an incredible woman named Edith Schlafer 
in Vienna, and gave her a small seed grant to get this off the 
ground and asked her to move it forward.
    Right now, you know, all these years later, it is an 
independent organization that has chapters all over the world, 
but she has mobilized and built a network of women to push 
back, to talk about things, to put the lessons that she has 
learned on the table.
    That is one piece of the complexity with women and 
extremism. Okay. The other is what is happening to Muslim 
women. And that is the other piece, if you wouldn't mind, I 
will just spend a moment on.
    Mr. Keating. No. I think that was my second question, so 
you are heading the right direction.
    Ms. Pandith. Okay. So in my role as Special Representative 
to Muslim Communities, one of the most impressive points to me 
was that what I thought had happened in Europe, this identity 
crisis, was not just minorities living in Europe, but, oh, my 
goodness, that was happening to Muslims in Muslim-majority 
countries as well.
    So this idea that identity crisis from Malaysia to, you 
know, Argentina with Muslims matters to us, and it matters very 
boldly, because as people are asking these questions, as I 
said, the vacuum is being filled by narratives that come from 
extremists. That doesn't leave women out of the picture. These 
are digital natives, they are connected. With the swish of 
their finger on their, you know, smart phone, they are getting 
ideas that are bouncing around the world.
    And what did I see as special representative? I began to 
see a change in the way this generation of young Muslim women 
began to think about themselves, think about their role. And so 
you are seeing a two-pronged thing: One, you can absolutely use 
women, and you should, to stop the stem of radicalization, to 
understand what is happening in the home.
    The other point is we are beginning to see women getting 
radicalized in a----
    Mr. Keating. Oh, that was my question.
    Ms. Pandith [continuing]. In a very big way, right. So----
    Mr. Keating. If I could for a second. There is an irony 
there, because in many of these groups, the place of women is 
anything but high in the level of authority and power; however, 
you are seeing ISIL and some of these other groups use women, 
not necessarily as soldiers, but you are seeing them used in 
the social networking and communication and in shaping people's 
ideology in countries where some of the people--the average age 
of some of these countries, the average age is 25 years old.
    So that if you could just continue, I think that was the 
second point I wanted to make.
    Ms. Pandith. Well, of course. You are correct. And that age 
group is really pivotal, because they are beginning to be 
mothers themselves, they are raising their children a 
particular way, they are thinking about their role in society 
in a particular way. Either you are going to be open and engage 
with the outside or you are going to retreat and come back in. 
So you are looking at data points across the board.
    You are also looking at what they are looking at online, 
what they are listening to, how they see themselves. It doesn't 
take a lot of imagination. This summer, ISIS has an all 
women's, you know, organization. We have AQ doing the same 
thing. If we use our imagination and think of what else comes 
down the pike, it is very scary.
    Mr. Keating. Yeah. I will just bring one point home, Mr. 
Chairman, and that is the point that even in the Boston 
Marathon bombing----
    Ms. Pandith. Yes.
    Mr. Keating [continuing]. It is very clear the effect that 
Tamerlan Tsarnaev mother had on his radicalization. I won't 
comment on, since there is a trial pending, on the, you know, 
her other son, but I will say clearly with Tamerlan, that has 
been proved.
    So Mr. Chairman--thank you for your comments. Mr. Chairman, 
I yield back.
    Mr. Rohrbacher. Thank you. Yes. And thank you for your 
thoughtful questioning.
    And Mr. Yoho.
    Mr. Yoho. Again, thank you, Mr. Chairman. I thank you both 
for your testimony.
    And, Mr. Joscelyn, I think you are right on. I mean, we are 
seeing this happening now. And you were saying most of the 
radicals don't come back. We don't need most of them. If you go 
back to 9/11, we all know there were only 19 people, and they 
had, I think, it was $500,000, but they were able to change 
real quickly.
    And now we have these organizations that have become more 
coalesced. And what I have seen, and correct me if I am wrong, 
is an escalation of the amount of radical groups and I see them 
coalescing into a stronger force, well organized, well funded. 
With ISIL supposedly getting $3.5 million a day in the sale of 
oil on the black market, we are just going to see more and more 
of that.
    And in this meeting room here, it was about 6 months ago, 
we had a group that was representing Somalians that had come to 
the United States. Minnesota is where they are from. And I 
asked them why they came to Minnesota. I was born in Minnesota 
and I was glad--it is a great state, but it is a little bit too 
cold for me, so why would the Somalians choose Minnesota, and 
they said it was for education and jobs. But yet when I asked 
them what percentage of the male population were employed, he 
said it was very low, it was high unemployment in that group. 
What percentage graduated from high school? He said it is very 
low. And then I went into, you know, the questions of how many 
are practicing Muslim. I assume the majority. And he said yes. 
Then we moved on to do they follow Sharia law or U.S. 
constitutional. He says, we go with constitutional law, but, 
yes, Sharia. And then I asked him if they were assimilating and 
becoming Americans and adapting our ideologies. And he says, we 
are having a real hard time with that.
    That scares me, because we are growing that type of thing 
that we are seeing now, and as you brought out, the person from 
Florida and the person before Minnesota going over and becoming 
radical jihads.
    We have to have a way--and this goes back to a bigger 
problem, you know, with our immigration policy. I think we all 
want responsible immigration, but we have to do it right to 
bring the people over here.
    But going back to the ISIL threat, removing the passports 
from these people, one of the questions I had is if we remove 
these passports--I lost my train of thought here. How can the 
U.S. help our European allies to defend themselves from the 
threat of these returning foreign fighters? You know, they got 
a Western passport, they can go over there and they can come 
back if they are a U.S. citizen. And I think Britain has 
already started to take these passports away. Is that right?
    Mr. Joscelyn. That sounds right. Yeah, they have--Britain 
has a number of security restrictions they can put in place.
    Mr. Yoho. Okay. With that, I am going to yield back.
    And, Mr. Chairman, I appreciate your time.
    Mr. Rohrbacher. Well, thank you very much.
    A couple of questions. Are these the uneducated--overseas, 
are these the uneducated people of lower classes who can't get 
jobs or are they like Bin Laden from the upper crust, who are 
actually very well educated and not necessarily just the 
product of Madrassa schools, but instead, people who know the 
choices and have made the choice that their religion is better 
than everybody else's?
    Mr. Joscelyn. It cuts across socioeconomic boundaries. It 
is not easy to typify sort of your recruit in that regard. You 
know, when you look at, again, the common example are the 
suicide hijack pilots on 9/11: Highly educated, come from good 
families. You know, Bin Laden came from a good family, Ayman 
al-Zawahiri came from a very influential family. You find this 
over and over and over again.
    It is really the strength of the idealogy that binds them 
together, and not necessarily any socioeconomic factors.
    Mr. Rohrbacher. Uh-huh. Let me note it before we move on, 
and that is that it is vitally important that we do not try to 
lump all Muslims into the category of terrorists, otherwise, we 
are doing exactly what the terrorists want us to do, which is 
create a dichotomy between the Western world and all Muslims, 
and thus expand dramatically their strength and potential 
danger.
    So we should make sure we reach out--and again--and this 
is--Ms. Pandith, how--you were talking about the Muslim 
community and perhaps an identity crisis going on with 
different people. Do you think that there is a real threat that 
we could have an overreach here and push Muslims into the 
radical terrorism camp, and do you see that happening at all?
    Ms. Pandith. So I think one of the things that is important 
for us to understand is what we have learned over 13 years of 
trying to look at the radicalization process, what is happening 
in communities, what Government can do, what communities can 
do, how the strengths and weaknesses have played out over the 
course of 13 years. And you asked a really important question 
about, you know, who are these people, you know, how well 
educated are they, where do they come from.
    One of the things I was talking about in my testimony is 
the nuanced approach to understand the distinction within--
certainly here today we are talking about Europe. Which 
generation are we talking about? Which ethnicities are we 
talking about? How are they looking at the particular issues 
that they are dealing with?
    The success is going to coming from the community level. 
And as you look at the responses across Europe and how 
governments are looking at the threat, there is a wide range of 
reactions to this growing problem, but when you are looking 
forward, when you are looking at the distant opportunities for 
recruitment, we have to start with the immediate family, we 
have to start with the communities, and we have to make sure 
that the communities are getting information about what we have 
learned about how recruitment happens, that we are looking very 
deep at all of these issues, and not sort of separating the 
immediate from, you know, just not having a threat now.
    Mr. Rohrbacher. You know, I will have to tell you, the 
world has faced many different challenges from murderous groups 
over the history of the plant. And Muslim extremism, or I 
should say, you know, and perhaps, I know a lot of Muslims 
don't like the--even the word ``Islam'' associated with 
radicalism, but a lot of us are having trouble with that.
    We want to be respectful of their faith, but we can't help 
but notice that the people who are murdering people are doing 
so in the name of their faith, and it really pulls on a lot of 
us, because we know, I mean, I know many Muslim people who are 
wonderful people and would never dream of that, and I don't 
think their faith is doing anything but adding to their life, 
but obviously those people whom we are fearing now identity the 
Islamic faith, Muslim faith as the motivator that is motivating 
them to do that. They are announcing that to the world.
    And I am not sure, and, again, after listening to your 
testimony, you know, 50 years ago and 60 years ago, the world 
was threatened by these Nazis, who had no Muslim connection at 
all, who were, basically came from a Christian country, and 
Japanese militarism, which had its own--you could identify the 
Shinto religion that they were part of that glorified their 
ancestors, especially, who were very military successful 
ancestors, you could see that direct line, but I don't--to be 
fair about it, I don't think that our--that the greatest 
generation that we call in the United States spent time trying 
to psychoanalyze why people became Nazis or why people of Japan 
backed up their militarist wing; we simply went out and had to 
defeat them.
    And I think maybe that is where we are at now, that we want 
to understand, as you were saying, these Muslim people who are 
involved with the radical terrorist elements, respecting the 
fact that most Muslims are not that way, but the job now is not 
some long-term analyst, but instead, to try to defeat this evil 
force that would murder our families.
    And maybe you both would have a comment on that?
    Ms. Pandith. Mr. Chairman, may I just respond to what you 
were saying?
    Mr. Rohrbacher. Sure.
    Ms. Pandith. In terms of the threats that our world have 
faced, you very nicely pointed out two ideological examples, 
but our country took it seriously, the ideological piece. We 
invested everything, both hard power and soft power, to defeat 
that threat. We have not done that now, sir.
    Mr. Rohrbacher. You know what? I don't think that we 
actually put any effort into denouncification until after we 
defeated them and disarmed them, and that is when we--
denouncification had an impact, but it wasn't until then.
    And right now, I think we are in the battle mode, of this 
fight, you know. And maybe afterwards, we can--and that is why 
we have to support the President in his efforts as best we can, 
and other--and unite as a country against this, because I 
happen to believe it will--and I think we all agree, that, yes, 
our European friends are now going to bear the brunt, but we 
are just the very next step away from there, and our children, 
our families are going to be at stake.
    Mr. Joscelyn?
    Mr. Joscelyn. Well, I don't think it is necessarily an 
either/or. I agree with you that we need to defeat them 
militarily. I think the Jihadist ideology needs military 
successes in order to recruit, and so they need to be defeated 
militarily, otherwise they are going to deep saying that they 
are the strong horse people should side with.
    But just take a step back for a second. And what is going 
on here is, I find, as somebody who has studied Bin Laden and 
Zawahiri very carefully, we still don't ever really understand 
what they were all about. You know, 9/11, these terrorist 
attacks, they weren't an end in and of themselves; they were 
trying to seek to spark a political revolution within the 
Muslim world. And within the Jihadi camp, Bin Laden is known as 
the reviving sheikh. And what does that mean? It means that, 
according to al-Qaeda's theory of the world, Muslims had--were 
no longer waging Jihad like they were supposed to, and he 
needed to revive the Jihadi spirit across the Muslim world.
    Now, this becomes--that--so it becomes very much an 
ideological battle, because if you look at what they were 
trying to do, and, in fact, Bin Laden was a great student of 
the Chinese game Go, where you can convert pieces on the board 
to your side. Once you surround them and they become your 
pieces, and then you can re-deploy them. That is a political 
revolutionary thinking about how to convert Muslims to his 
cause, which is what al-Qaeda's always been about.
    And they have had many setbacks in that regard, mainly 
because most of their violence has actually killed their fellow 
Muslims. And this is a strategic liability, not just for al-
Qaeda, but also for ISIL. ISIL is you know, we are talking 
about the threats to the West right now, and we should be, but 
ISIL, if you look at their body count, right now it is a lot of 
Muslims throughout Syria and Iraq and only a few Westerners, 
you know.
    And I have seen, you know, you talk about the beheading 
videos of James Foley and Steven Sotloff, which really 
galvanized us into action, I can tell you I watched probably 
hundreds of beheadings of Syrians and Iraqis before that, you 
know, Muslims on the ground who are our allies in this fight 
who were getting killed, you know. And so that is where the 
ideological battle is----
    Mr. Rohrbacher. Sure.
    Mr. Joscelyn [continuing]. Because in the military battle, 
you are talking about, Congressman, we need to figure out who 
our allies are. And we have a lot of Muslim allies. We have to 
identify them as such in this greater contest.
    Mr. Rohrbacher. I think that is a--you have made a really--
well, both of you have made really good points today. And the 
idea about keeping in mind that there have been more Muslims 
murdered by these--by the people that threaten us today than 
have Anglos or European background people, although obviously 
we are concerned about the safety of our families. And that is 
our job here, is to make--ultimately to be concerned about our 
families.
    And hopefully our fellow Americans of the--and I would hope 
that we challenge, all of us challenge them to step up and back 
them up in their communities when they take a stand against 
these type of extremists that would murder their fellow human 
beings.
    I was shocked when several organizations that I read some 
fliers from them suggesting--from several Muslim organizations 
in the United States were suggesting that their people not 
cooperate with the FBI. I don't know----
    Mr. Keating, I don't know if you have seen that or not, but 
I certainly saw a couple of handouts indicating--I won't name 
the group, because maybe it is unfair to that group. Maybe that 
only reflected one or two people in the group who took 
advantage of a situation.
    But we challenge our fellow Americans who are Muslims to 
join us and help us win this battle, because, as we are 
learning today, it is a--what is happening in Syria is going to 
be a wave that hits us here in the United States and is already 
beginning to be felt in Europe.
    Let me ask Mr. Joscelyn about the shared threat that we 
have with our European allies, but do we not also share this 
threat, and I mentioned this in my opening statement. Do we not 
share this threat with Russia and should we not cooperate with 
Russia? Mr. Keating and I actually went to Moscow and met with 
their intelligence operatives and got a briefing on those 
people who were involved with the bombing in Boston, the Boston 
Marathon.
    Mr. Joscelyn. Well, I will preface this by saying there are 
a lot of ways in which our interests in Russia obviously are 
not consistent. We have divergent interests across the board I 
would say.
    But, you know, to your point when you study who is in Syria 
right now, the Chechen Jihadists in Syria right now, these are 
not freedom fighters, you know. They are deeply opposed to the 
Russian Government. They are also hostile to us. They are very 
much on either ISIL's side or al-Qaeda's side in Syria. In 
fact, you know, this hearing is happening because of ISIL's 
military gains on the ground in Iraq and Syria.
    One of the top military commanders in Syria is a Chechen 
for ISIL. His name is, he is known as Abu Omar al-Shishani. And 
he is actually the one who really gave them their military 
victories in eastern Syria, which has opened up the pathway 
into Iraq. And so the Chechen Jihadists are really the most 
committed, I would say, skilled and oftentimes tacticians in 
this fight. They are a threat to Russia, they are a threat to 
our interests, so in that sense there is a common threat there.
    You know, one of the interesting things we were talking 
about the radicalization of women, well one of the biggest 
examples of that is in fact the Chechen black widows who have 
committed terrorist attacks in Moscow. These are the widows of 
fallen Jihadists in the Chechen and groups in Dagestan and 
Chechnya who go on to become suicide bombers in operations 
there. So there is a common bond at least in that one narrow 
sense in terms of the threat of the Chechen Jihadists.
    Mr. Rohrabacher. I notice our other witness shaking her 
head. Would you like to add to that?
    Ms. Pandith. Thank you, Mr. Chairman.
    I also wanted to say, I mean, you made a very good point 
about having everybody join to push back against the ideology 
of extremists, and what you have seen in the last 13 years 
since 9/11 is the increase of voices that are pushing back that 
are coming from Muslim communities, and you are seeing new 
networks, you are seeing networks of former extremists that 
have been built to push back, but that needs to be ramped up. 
Those are the voices that matter, those are the credible 
voices, and to your point about Russia and the black widow 
example that my colleague has just raised, that is, to me that 
is a great illustration of, you know, the worst case scenario, 
but what we ought to be looking at is not when it is the tip of 
the iceberg; what is actually percolating? What is actually 
happening to get them there? And that is where we have to stem 
and cut the radicalization process. If you don't have recruits, 
you will not have armies.
    Mr. Rohrabacher. To be fair, I cannot understand why a 
religious extremist group that would, it appears on its surface 
to be so anti the freedom of women and so oppressive in terms 
of saying that women have to wear a garment and hide themselves 
and look out a little slit or can't drive cars or can't have 
regular jobs, I do not, I can't comprehend how there would be 
women joining the ranks of people like who held those beliefs 
in order to try to create a society based on those standards.
    Ms. Pandith. Mr. Chairman, there are lots of reasons why 
the women are joining the fight, and I know that there is not 
just one or two that are prominent. There are many, some of 
which include wanting, some of the married people who are there 
and want to be part of that ecosystem.
    Some want to raise children so that they are creating the 
next army. Some do it because they are ideological, they are so 
invested in the ideology of building a so-called caliphate that 
they want to be part of this and they want to live there. I 
mean, there are many reasons why, but their sense of belonging 
in terms of where they are.
    If you look at the two teenage girls from Austria who ran 
away from home to join Chechen Jihadis, I mean, this is an 
illustration of the kinds of things that are happening. How is 
it possible that two young girls who grew up in an open and 
free environment chose to do that? How did they get 
radicalized? What were they looking at online that moved them 
in that direction?
    And sir, the last point I would say is the other role that 
women are playing is that enticement role. So if you have 
somebody on the other end of a You-Tube video or a chat room 
that is eager to bring women on board and you are another woman 
and her voice calling them in, it is very persuasive.
    Mr. Rohrabacher. Well, we obviously face a major challenge 
and not just with Democrats and Republicans uniting the face of 
foreign challenge, but also people of various religious faiths, 
including the Muslim community and the Christian community and 
Jewish community here in the United States and elsewhere.
    We need to have some unity behind this to help save mankind 
from the senseless murder of innocent people, and when we talk 
about people being terrorists, their purpose is to terrorize, 
and that means to win the battle through terrorizing a 
population, to letting them achieve their goal through that 
terror.
    We Americans are not going to be terrorized into giving up 
our rights and our freedom and our ability to be part of the 
world, and I don't--I think we need to stand with our European 
allies in this and especially our allies in the Muslim world 
who are being killed and murdered at a much higher rate.
    Closing statement from Mr. Keating and Mr. Yoho?
    Mr. Keating. Thank you, Mr. Chairman.
    I think what was interesting with this hearing, among many 
things, was how we were dealing with how this radicalization 
occurs, the stemming of it, how it is nurtured, and I think we 
don't put enough emphasis on that, and we are going to have to, 
and we can't just do it here in the U.S. We have to do it in 
Europe and we have to do it certainly through the Mideast.
    I look at the examples of what they are doing and how 
sophisticated they are doing things, they are actually making 
great efforts, whether it is ISIL or other radicalized groups 
associated with al-Qaeda. They are destroying Muslim history in 
many senses, not just orally and passing it on, but actually 
through the destruction of artifacts and the destruction of 
antiquities, and they are profiting actually from the sale of 
those to help fuel their cause.
    But in the process they are destroying it and they are 
creating a new narrative of their own that is not historical, 
is not traditional, it is not religious, so we touched on that, 
and as we go forward I think that is something we should put 
greater emphasis on.
    And I want to thank our two witnesses for touching on those 
things today in their testimony.
    Mr. Rohrabacher. Thank you, Mr. Keating.
    And Mr. Yoho?
    Mr. Yoho. Thank you, Mr. Chairman.
    Thank you both.
    As we were talking about, and I am sure you have read the 
book by Samuel Huntington, The Clash of Civilizations, talking 
about the majority of the conflict in the world is Muslim to 
Muslim, but when you insert the Westerner, they come together, 
and we become the common enemy.
    How much of the growth of radicalism comes from the hatred 
of the West ideals of liberties and freedoms versus the Western 
foreign policy or are they connected in your opinion?
    Mr. Joscelyn. Well, I will say the ideology is deeply anti-
Western. A lot of times they view our foreign policy through a 
very conspiratorial lens which doesn't actually reflect 
reality.
    So, you know, for example, even though we were on the side 
of Bosnian Muslims during the conflict there in the 1990s, you 
know, Osama bin Laden was able to rationalize critique of U.S. 
policy because we didn't deliver arms to Muslim forces quick 
enough.
    Mr. Yoho. Right.
    Mr. Joscelyn. So it is deeply--it is more ideological than 
my view of being anti-Western than it is really foreign policy 
driven.
    Mr. Yoho. Is it Ms. Pandith, right?
    Ms. Pandith. Yes.
    Mr. Yoho. The girls that were in Australia, were they 
Australian background? Were they born there or are they of 
Muslim descent?
    Ms. Pandith. It was Austria. If I misspoke----
    Mr. Yoho. I am sorry, Austria.
    Ms. Pandith. No, no, no, it is all right. I believe that 
they were born there. I can double check for you and get back 
to you on that point.
    Mr. Yoho. Well, because what I see is the lone wolf 
starting to develop in this country like that Alvin--I think it 
was Ali Muhammad Brown who had supposedly murdered four 
American men in the name of Jihad against the West, and we just 
don't want to see that over here, so I look forward to dealing 
with you in the future and I hope----
    Ms. Pandith. It would be my pleasure.
    Mr. Yoho [continuing]. To help design policies that will 
prevent this.
    Thank you both. Have a great weekend.
    Mr. Rohrabacher. I want to thank the witnesses.
    Thank my fellow colleagues.
    The American people need to know that we are taking this 
very seriously and that there is a threat that is a merging 
threat with this battle that is raging in Syria, it will impact 
on our society and our safety. We have got to pay attention to 
it.
    What the people in Europe are now beginning to experience 
are those people coming back from this conflict we will 
experience as well. The wave will hit us, and it is--what we do 
about it, we have to use our heads, but we have to be 
courageous, and again we need to make sure that all Americans, 
including Muslim Americans, are recruited in this effort. So I 
want to thank the witnesses and this hearing is adjourned.
    [Whereupon, at 10:28 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
